No.
3hi tlje

Supreme Court of tje SJmtetr i§>tate£
ELLIOTT J. SCHUCHARDT, individually and
doing business as the Schuchardt Law Firm,
Petitioner,
v.
President of the United States, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
PETITION FOR WRIT OF CERTIORARI
Elliott J. Schuchardt
Schuchardt Law Firm
6223 Highland Place Way
Suite 201
Knoxville, TN 37919
(865) 304-4374
elliottO 16@gmail. com
Appearing Pro Se

July 27, 2020
Becker Gallagher • Cincinnati, OH • Washington, D.C. -800.890.5001

RECEIVED
JUL 2 9 2020

1

QUESTIONS PRESENTED
On June 5, 2013, former United States government
contractor Edward Snowden released documents
indicating that the federal government was
intercepting and electronically storing (“collecting”) the
full content of e-mail in the United States without a
warrant.
The Petitioner, Elliott Schuchardt, is an attorney
practicing law in Knoxville, Tennessee. On June 2,
2014, Schuchardt filed suit against the federal
government, seeking an injunction to prevent collection
of his e-mail, and that of the members of his proposed
class.
The issues in this case are as follows:
1. Whether Schuchardt has presented sufficient
factual evidence of Defendants’ bulk collection of e-mail
to establish a prima facie case for violation of the 4th
Amendment.
2. Whether the executive branch of the federal
government should have unfettered access to the
nation’s e-mail database, without having to seek access
through the courts.

11

PARTIES TO THE PROCEEDING
The Petitioner is Elliott J. Schuchardt, individually
and doing business as the Schuchardt Law Firm. The
Petitioner was the Appellant in the Third Circuit case
below.
The Respondents are various officers of the United
States federal government, in their official capacities.
The Respondents were the Appellees below. The
Respondents are:
Donald J. Trump, in his capacity of President of the
United States
John Ratcliffe, as Director of National Intelligence
Paul M. Nakasone, as Director of the National
Security Agency
Christopher A. Wray, as Director of the Federal
Bureau of Investigation

Ill

STATEMENT OF RELATED PROCEEDINGS
Schuchardt u. President of United States et al., U.S.
Court of Appeals for the Third Circuit, Case No. 191366, opinion and judgment entered on Mar. 2, 2020.
Schuchardt v. Trump, et al., U.S. District Court for the
Western District of Pennsylvania, Case No. 14-705,
opinion and judgment entered Feb. 4, 2019.
Schuchardt u. President of United States, et al., U.S.
Court of Appeals for the Third Circuit, Case No. 153491, opinion and judgment dated Feb. 5, 2016.
Schuchardt v. Obama, et al., U.S. District Court for the
Western District of Pennsylvania, Case No. 14-705,
opinion and judgment dated Sept. 30, 2015.

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED.........
PARTIES TO THE PROCEEDING

1
11

STATEMENT OF RELATED PROCEEDINGS ... iii
TABLE OF AUTHORITIES

Vll

OPINIONS BELOW

2

JURISDICTIONAL STATEMENT

3

CONSTITUTIONAL PROVISION INVOLVED .... 3
STATEMENT OF CASE
PROCEDURAL BACKGROUND

4
15

REASONS FOR GRANTING THE PETITION ... 18
I. The District Court erred by dismissing this
case for lack of subject matter jurisdiction .... 18
A. Schuchardt has adequately pled a
cause of action for violation of the
4th Amendment

19

B. The District Court erred by deciding
the merits of this case on a motion
challenging subject matter jurisdiction .... 25
C. Schuchardt presented to the lower court
ample factual evidence of improper
government collection of e-mail
II. It is proper for the Court to grant a
writ of certiorari in this case ......

27
29

V

A. The executive branch is infringing on
the investigatory function of this Court.... 30
B. Respondents’ conduct is an impermissible
“general warrant.”....................................

33

C. The Respondents’ system provides no
effective protection for the information
of U.S. citizens..........................................

35

D. Four federal circuit courts have held that
plaintiffs have standing in collection cases,
such as this case .............................................

37

E. The Privacy and Civil Liberties Board
did not ratify Respondents’ collection
activities...................................................

41

CONCLUSION

43

APPENDIX
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Third
Circuit
App. 1
(March 2, 2020)
Appendix B Order and Judgment Order in the
United States District Court for the
Western District of Pennsylvania
(February 4, 2019)
App. 19
Appendix C Opinion and Judgment in the United
States Court of Appeals for the Third
Circuit
App. 25
(October 5, 2016)

VI

Appendix D Memorandum Order and Judgment
Order in the United States District
Court for the Western District of
Pennsylvania
(September 30, 2015) . .
App. 65
Appendix E Constitutional Provision
Involved..........................

App.81

Appendix F Second Amended Complaint
(November 24, 2014).................... App. 82
Appendix G. Affidavit of Elliott J. Schuchardt
(January 7, 2015).................... App.119
Appendix H Affidavit of William E. Binney
(July 4, 2017)............................. App. 124

Vll

TABLE OF AUTHORITIES
CASES
ACLU v. Clapper,
785 F.3d 787; 2015 U.S. C.AApp. LEXIS 7531
(2d Cir. 2014)................................................... 37, 38
Ashcroft v. Iqbal,
556 U.S. 662, 129 S. Ct. 1937 (2009)...........

19

Boumediene v. Bush,
553 U.S. 723, 128 S. Ct. 2229 (2008)...........

30

Clinton v. City of New York,
524 U.S. 417, 118 S. Ct. 2091 (1998)...........

33

Davis v. United States,
328 U.S. 582, 66 S. Ct. 1256,
90 L. Ed. 1453 (1946)......................................

44

Davis v. Wells Fargo,
824 F.3d 333 (3d Cir. 2020)...........................

1, 26

Gould Elecs., Inc. v. United States,
220 F.3d 169 (3d Cir. 2000)........................... 18, 25
Hartig Drug Co. Inc. v. Senju Pharm. Co. Ltd.,
836 F.3d 261 (3d Cir. 2016).................... ..

25

Jewel v. NSA,
673 F.3d 902 (9th Cir. 2011)...........................

37

Klayman v. Obama,
957 F. Supp. 2d 1 (D.D.C. 2013)....................

40

Marbury v. Madison,
5 U.S. 137 (1803)...............................................

30

vm
Mortensen v. First Fed. Sau. & Loan Ass’n,
549 F.2d 884 (3d Cir. 1977) ..........

25

United States v. Mitchell,
377 F. Supp. 1326 (D.D.C. 1974)...........

. 31

United States v. Nixon,
418 U.S. 683 (1974)................................... 30, 31, 32
Warden, Maryland Penitentiary v. Hayden,
387 U.S. 294, 87 S. Ct. 1642,
18 L. Ed. 2d 782 (1967)...............................

. 34, 35

Wikimedia Foundation v. National Security
Agency, 857 F.3d 193 (4th Cir. 2017).

18, 39

Youngstown Sheet & Tube Co. v. Sawyer,
103 F. Supp. 569 (D.D.C. 1952).........

30

CONSTITUTION AND STATUTES
U.S. Const, art. Ill, Sect. 1......................

31

U.S. Const, amend. IV...............................

passim

28U.S.C. § 1254..........................................

3

28U.S.C. § 1331............................................
Foreign Intelligence Surveillance Act,
50 U.S.C, chap. 36.

1, 18
. 5

RULES
Fed. R. Civ. P. 12(b)(1)
Sup. Ct. R. 13.1...........

1, 18, 25, 26
3

IX

OTHER AUTHORITIES
3 Elliot’s Debates

35

“Erin Burnett - Outfront,” CNN, May 13, 2013, at
http s: //w w w .y o utube. com/watch?v=fF n Ce 0 gTh
28
1Y
Report of the Privacy & Civil Liberties Board
(2014).......................................................................... 42
James Risen and Eric Lichtblau, “Bush Lets U.S.
Spy on Callers Without Courts,” N.Y. Times,
Dec. 16, 2005............................................................ 28
Statement of Diane Roark, former staff member,
United States Senate, at 1 hour, 13 minutes in
https://www.c-span.org/video/7450976-l/national
-security-agency-september-11-2001
5, 27
Transcript of Snowden appearance,
at www.ted.com....................................

14

1
PETITION FOR WRIT OF CERTIORARI
The Petitioner, Elliott J. Schuchardt, files this
petition for a writ of certiorari to review a judgment of
the United States Court of Appeals for the Third
Circuit.
On March 2, 2020, the Third Circuit entered an
order finding that the Petitioner did not establish
subject matter jurisdiction in this case, pursuant 28
U.S.C. § 1331.
The Petitioner respectfully requests that the Court
grant a writ of certiorari for the reasons set forth
below.
First, it was improper for the District Court to
decide this case on a Rule 12(b)(1) motion to dismiss for
lack of subject matter jurisdiction, when the merits of
such motion were the same as the merits of the case
itself. The Third Circuit has repeatedly stated that
cases should not be dismissed in such circumstances.
See Davis v. Wells Fargo, 824 F.3d 333, 348-349 (3d
Cir. 2020).
Second, there are important public policy reasons
why this case should move forward. Schuchardt
contends that Respondents are collecting the full
content of the nation’s e-mail database, in violation of
the 4th Amendment of the United States Constitution.
Respondents have established a computer database
of private communications, which they can presently
access at will. Such database consists of the full
content of all e-mail sent within or passing through
United States communication facilities.

2
As evidence of this statement, Schuchardt filed with
the District Court an affidavit of William E. Binney -a former technical director at the National Security
Agency. (App. 124). In his affidavit, Binney testified
that he helped create Respondents’ system, has
reviewed the documents released by Edward Snowden,
and believes Respondents are continuing to collect the
full collection of the nation’s e-mail. Id.
The bulk collection system established by
Respondents is unworkable, and will foreseeably be
abused by those who control the database. In fact,
abuse of the system is already occurring, with alleged
unauthorized access to the database taking place
during the 2016 federal election.
' It is safer to place such database in the hands of the
internet service providers themselves, with access being
controlled by the courts. Public policy and the 4th
Amendment require such conclusion.
OPINIONS BELOW
The opinion of the Court of Appeals, dated March 2,
2020, is reported at 802 Fed. Appx. 69, 111 Fed. R.
Evid. Serv. (CBC) 908, 2020 WL 995735. It is
reproduced at App. 1-18.
The opinion of the District Court, dated February 4,
2019, is unreported, but is available at 2019 U.S. Dist.
LEXIS 17174, 2019 WL 426482. It is reproduced at
App. 19-24.
The opinion of the Court of Appeals, dated February
5, 2016, is reported at 839 F.3d 336. It is reproduced at
App. 25-64.

3
The opinion of the District Court, dated September
30, 2015, is unreported, but is available at 2015 U.S.
Dist. LEXIS 132962. It is reproduced at App. 65-80.
JURISDICTIONAL STATEMENT
This appeal is from a judgment of the U.S. Court of
Appeals for the Third Circuit entered on March 2,
2020.
This Court has jurisdiction over this petition
pursuant to 28 U.S.C. § 1254 (2020).
This petition has been filed within the time limits
set forth in Supreme Court Rule 13.1 and Supreme
Court Order 589.
CONSTITUTIONAL PROVISION INVOLVED
The Fourth Amendment of the United States
Constitution states as follows:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
U.S. Const, amend IV.

4
STATEMENT OF CASE
This case challenges Respondents’ collection of email sent within the United States without a warrant.
The facts of the case are well-established.
In 1998, the National Security Agency (the “NSA”)
developed the ability to tap the nation’s fiber optic
lines, in order to collect1 certain information associated
with the nation’s growing e-mail traffic. (C.A.App. 229,
T1 12). The initial program was led by William Binney,
a technical director at the NSA. (C.A.App. 230, ^ 1617). Binney is the Petitioner’s expert witness in this
case.
In the late 1990s, there was an internal debate at
the NSA as to whether the government should collect
the full content of e-mail, or just information relating
to the persons sending and receiving the
communication. That debate was secretly resolved -- at
least temporarily - following the events of September
11,2001. (C.A.App. 230).
On October 4, 2001, President George W. Bush
authorized the NSA to collect the full content of e-mail
sent within or passing certain United States
communication facilities. The program, called Stellar
Wind, was not disclosed to the general public.2
(C.A.App. 94, 230).
1 In this brief, the term “collect” means to intercept, access and
store an electronic communication or information in a digital form.
2 The program was only disclosed to the chairperson and ranking
opposing party member of the U.S. House and U.S. Senate
intelligence committees. No other members of Congress were
briefed on the program.

5
With this decision, the NSA’s philosophy became
very different. It’s goal and modus operandi were now
to “own the internet” and “collect it all. ”3
In December 2005, the New York Times published
an article about the Stellar Wind program, exposing it
for the first time. (D.C.Docket No. 68, at 1.) A few
months later, in May 2006, an AT&T technician
revealed that the NSA was copying all e-mail passing
through an AT&T communication facility in San
Francisco. Id.
Following these disclosures, the federal government
sought to establish the legality of the Stellar Wind
program through the Foreign Intelligence Surveillance
Court (the “FISC”). (D.C.Docket No. 68, at 2.) The
FISC is a court established pursuant to the Foreign
Intelligence Surveillance Act, 50 U.S.C. chap. 36
(“FISA”). Id.
On December 13, 2006, the U.S. Department of
Justice filed an application with the FISC for approval
of the Stellar Wind program. The application asked
the FISC to give the government blanket authority to
collect all e-mail passing through specific
communication facilities. Once collected, the e-mail
could be searched with approval of the Attorney
General, but not a court. (D.C.Docket No. 68, at 2.)

3 See Statement of Diane Roark, former staff member, United
States Senate, at 1 hour, 13 minutes in https://www.cspan.org/video/?450976-l/national-security-agency-september-ll2001.

6
On January 10, 2007, the Honorable Malcolm J.
Howard, a judge with the FISC, preliminarily approved
the government’s petition. Id.
Shortly thereafter, then-Attorney General Alberto
Gonzales told the media that the warrantless collection
program had been brought “under the authority of the
FISC.” He described the administration’s legal theory
as “innovative” and “complex.” (D.C.Docket No. 68, at
2.)
However, Gonzales spoke too soon. On March 21,
2007, the government filed an application to renew the •
bulk collection authority approved by Judge Howard.
This time, the FISC denied the application. Id. In an
opinion written on April 3, 2007, Judge Roger Vinson
held that the government’s bulk collection of e-mail
was not authorized by the Foreign Intelligence
Surveillance Act. Id. at 2.
In denying the government’s request, Judge Vinson
explained his reasoning as follows:
Congress intended the pre-surveillance “judicial
warrant procedure,” and particularly the judge’s
probable cause findings, to provide an external
check on executive branch decisions to conduct
surveillance.
Contrary to this intent of Congress, the probable
cause inquiry proposed by the government could
not possibly restrain executive branch decisions
to direct surveillance at any particular
individual, telephone number or e-mail address.
* *

7
The government would have all the probable
cause findings . . . made by executive branch
officials, subject to after-the-fact reporting to the
Court. That result cannot be squared with the
statutory purpose of providing a p re-surveillance
“external check” on surveillance decisions.4.
Judge Vinson therefore ordered the government to
cease collecting e-mail as of May 31, 2007.°
Before finishing his opinion, however, Judge Vinson
addressed the government’s argument that the
President can collect the nation’s e-mail under his
powers as Commander in Chief of the armed forces.
Vinson addressed this argument as follows:
I recognize that the government maintains that
the President may have “constitutional or
statutory authority to conduct the electronic
surveillance detailed herein without Court
authorization.” [Citations omitted]. Nothing in
this order and opinion is intended to
address the existence or scope of such
authority, or this Court’s jurisdiction over
such matters.6
In other words, the FISC indicated that it would
“look the other way” if the President sought to collect
the nation’s e-mail under the President’s alleged
powers as Commander in Chief. In making this
4 D.C.Docket No. 23, at 4; D.C.Docket No. 23-4, at 15-16.
5 D.C.Docket No. 23, at 4; D.C.Docket No. 23-4, at 21.
6 D.C.Docket No. 23, at 5; D.C.Docket No. 23-4, at 20 (emphasis
added).

8
statement, Vinson gave the Defendants a green light to
collect the nation’s e-mail database, without further
involvement of- or oversight from - the FISC. That is
exactly what Defendants did. (D.C.Docket No. 68, at
3).
During the summer of 2007, Defendants began to
ramp up the most massive invasion of privacy ever
seen in the history of the world. Their goal was then and it is now - to intercept and store all online
documents and communications. This includes all
documents sent by e-mail, as well as documents stored
in cloud service providers, such as Dropbox or
Microsoft’s Sky Drive. (C.A.App. 100, 149-51).
Defendants’ systematic collection got underway on
the sixth anniversary of the 911 attacks:
On
September 11, 2007, Defendants began bulk collection
of e-mail sent by means of Microsoft’s e-mail service.
On March 12, 2008, the Defendants began bulk
collection of Yahoo e-mail and web search queries.
Other providers followed: Google on January 14, 2009;
Facebook on June 3, 2009; YouTube on September 24,
2010; Skype on February 6, 2011; AOL on March 31,
2012; Apple in October 2012; and Dropbox in June
2013. (C.A.App. 108-09; 145-46).
Binnev disclosures
During the past fifteen years, a number of persons
from the intelligence community have come forward to
warn the American people of the dangers of
Defendants’ conduct.
One of the first critics was William E. Binney, a
senior employee of the NSA and the technical director

9
of the team that created the system. Over the course
of his 31-year career, Binne}^ has mentored the
technical work of approximately 6,000 employees at the
NSA. (C.A.App. 229, U 9).
On July 2, 2012, Binney made the following
statement in an Affidavit, filed in this case:
[In late 2001,] the NSA began to implement the
. . . President’s Surveillance Program (“PSP”).
[MJembers of my . .. team were given the task of
implementing various aspects of the PSP. They
confided in me and told me that the PSP
involved the collection of domestic electronic
communications traffic without any of the
privacy protections built into [the former
program].
I resigned from the NSA in late 2001. I could
not stay after the NSA began purposefully
violating the Constitution.
(C.A.App. 188,

5-6) (emphasis added).

Other former-NSA employees back up Binney’s
allegations. Thomas Drake, a former employee of the
agency with 29 years of experience, states as follows:
Various employees who were implementing . . .
aspects of the PSP confided in me and told me
that the PSP involved the collection of domestic
electronic communications traffic without any
privacy protections or judicial oversight.

10
[The NSA] has, or is in the process of obtaining,
the capability to seize and store most electronic
communications passing through its U.S.
intercept centers. The wholesale collection of
data allows the NSA to identify and analyze
Entities or Communities of Interest later in a
static database.

The data is searchable and available. There is
no effective technical oversight by Congress or the
courts. It is seductively enticing to ignore the
law.
(C.A.App. 199-200, 1HI 7-8, 10) (emphasis added).
Thus, according to the NSA’s own former employees,
the agency is collecting the full content of the nation’s
e-mail without a warrant.
Snowden disclosures
In June 2013, another member of the intelligence
community came forward. That person was Edward
Snowden. (C.A.App. 143).
Snowden is a former system administrator for the
Central Intelligence Agency (“CIA”). He later worked .
for the consulting firm, Booz Allen Hamilton, inside an
NSA center located in Hawaii. (C.A.App. 143). In
these positions, Snowden worked directly with the
Chief Information Officer at the CIA to solve the
agency’s technology problems. Thus, like “Deepthroat”
in the Watergate scandal, Snowden was a senior

11
government employee with knowledge of what was
going on. Id.
While working for Respondents, Snowden learned
that Respondents were collecting the full content of
substantially all of e-mail sent by American citizens by
means of several large internet service providers.
(C.A.App. 143).
In early 2013, Snowden approached several
reporters to disclose his discovery. The information he
provided led to a series of articles published in the
Guardian and Washington Post newspapers. (C.A.App.
144, ff 32-33).
On June 6, 2013, the Guardian published an article,
which reported that Respondents had obtained direct
access to the servers of several large internet
companies, including Yahoo, Google, Facebook, Twitter,
Dropbox, and Apple. (C.A.App. 145, f 35).
The article is based on documents provided by
Edward Snowden.
Such documents show that
Respondents are collecting all e-mail sent by means of
certain internet companies based in the United States.
This includes e-mail sent by means of Microsoft, Yahoo,
Google, Facebook, PalTalk, AOL, Skype, YouTube and
Apple. (C.A.App. 108-09). The documents also show
that Respondents are collecting all documents stored
by means of certain cloud service providers, such as
Dropbox and Microsoft’s Skydrive. (C.A.App. 145-46).
For example, one document is labeled “New
Collection Posture.” It says: “Sniff It All, Know It All,
Collect It All, Process It All.” (C.A.App. 110, 146).

12
Another document boasts that the Respondents are
“one step closer to collecting it all.” (C.A.App. Ill,
146).
Respondents are literally storing every single
document stored on Microsoft’s Skydrive - a cloud
service. For example, one document states as follows:
Beginning on 7 March 2013, PRISM now collects
Microsoft Skydrive data as part of PRISM’s
standard Stored Communications collection
package. . . . This means that analysts will no
longer have to make a special request to SSO for
this - a process step that many analysts may
not have known about. This success is the result
of the FBI working for many months with
Microsoft to get this tasking and collection
solution established.
“Skydrive is a cloud
service that allows users to store and access
their files on a variety of devices.”
(C.A.App. 112, 146-47).
Respondents’ collection efforts have become so
massive that Respondents are having difficulty
processing all of the data. According to one document
obtained from Snowden: “Collection is outpacing
[Respondents’] ability to ingest, process and store to
the ‘norms’ to which [they] have become accustomed.”
(C.A.App. 113, 147).
Any doubt about the meaning of these documents is
resolved by the statements made by Snowden, himself.
During a video interview published by the Guardian,
on June 10, 2013, Snowden stated:

13
I, sitting at my desk, could wiretap anyone,
from you or your accountant, to a federal
judge or even the president, if I had a personal
e-mail.
(C.A.App. 115, 147) (emphasis added).
One month later, on July 12, 2013, Snowden
released a statement during a press conference. The
first paragraph of the statement read as follows:
Hello. My name is Edward Snowden. A little
over a month ago, I had a family, a home in
paradise, and I lived in great comfort. I also had
the capability, without a warrant, to search for,
seize, and read your communications. Anyone’s
communications at any time. That is the power
to change people’s fates. It’s also a serious
violation of the law, the 4th and 5th
Amendments to the Constitution of my country.
(C.A.App. 126-27, 147).
The above statements are astonishing, and indicate
a massive breach on the part of the Respondents of the
public trust, as well as a violation of United States law.
Following Snowden’s disclosures, Respondents
claimed that they were only storing “metadata,” and
not the actual content of electronic documents and
communications.7
7 Metadata refers to certain information relating to a specific email. It includes the date and time of the communication; the
sender; and the recipient of the e-mail. However, it would not
include the content of the e-mail.

14
Snowden responded to the government’s “spin” in
March 2014, when he appeared at a TED conference in
Vancouver, Canada by means of video conference.
During that appearance, Snowden said the following:
The best way to understand PRISM ... is to first
talk about what PRISM isn’t. Much of the debate
in the U.S. has been about metadata. They’ve
said it’s just metadata, it’s just metadata ....
PRISM is about content. 8
(C.A.App. 148).
More recently, extended interviews with Snowden
have appeared in Laura Poitras’ film, CitizenFour. In
that film, Snowden states directly that the
Respondents are collecting the full content of
Americans’ e-mail, without a warrant or any sort of
court supervision. Id.
Snowden has therefore confirmed the allegations of
earlier whistleblowers, Binney and Drake.
Lavabit Disclosures
Prior to June 2013, Edward Snowden used an
encrypted e-mail service called “Lavabit.” (C.A.App.
148-49).
Following .Snowden’s disclosures, Respondents
approached Lavabit and demanded that Lavabit install
a device on its server which would have provided
Respondents with access to the full content of all e-mail
messages for all of Lavabit’s 410,000 customers, an
extraordinary — and patently illegal - request.
See Transcript of Snowden appearance, at www.ted.com.

15
(C.A.App. 130, 148-49). Respondents also demanded
that the company’s owner, Ladar Levinson, provide to
the government the private encryption keys for all of
Lavabit’s e-mail accounts. Id.
On August 8, 2013, Levinson voluntarily shut down
Lavabit, because he could no longer provide a secure email service to his customers. Id.
The following day, on August 9, 2013, another email service -- Silent Circle - voluntarily, shut down
operations. After doing so, Silent Circle destroyed its
e-mail server so that its database of e-mail
communications would not fall into Respondents’
hands. (C.A.App. 131, 149).
Since August 9, 2013, there has been no secure email service within the United States. The content of
all e-mail sent within or passing through the United
States is monitored and stored by Defendants, without
a warrant or any form of court supervision.
PROCEDURAL BACKGROUND
The Plaintiff, Elliott Schuchardt, is an attorney
practicing law in Knoxville, Tennessee. Schuchardt
has practiced law for twenty-eight years. (C.A.App.
156).
Schuchardt is a consumer of many of the internet
services at issue in this case. He uses e-mail provided
by Google, Facebook and Yahoo; he conducts web
searches through the Google search engine; and he
stores his personal and law firm documents by means
of the Dropbox cloud storage service. (C.A.App. 156,
255).

16
As a lawyer, Schuchardt is required to keep his
communications with clients confidential. He is not
able to do so if the Respondents are actively
intercepting and storing his e-mail and online
documents. (C.A.App. 255).
On June 2, 2014, Schuchardt filed a complaint
against the Respondents, seeking an injunction.
Schuchardt subsequently amended the complaint on
September 2 and November 24, 2014. (C.A.App. 70,
138).
On December 11, 2014, the Respondents filed a
motion to dismiss Schuchardt’s second amended
complaint, pursuant to Rule 12(b)(6) of the Federal
Rules of Civil Procedure. (C.A.App. 8).
On January 7, 2015, Schuchardt filed a motion for
a preliminary injunction. (C.A.App. 8). The District
Court denied the motion shortly thereafter. Id.
On September 30, 2015, the District Court entered
an order dismissing the case, after finding that
Schuchardt did not have standing to raise the issues
set forth in the complaint. (App. 65).
On October 14, 2015, Schuchardt appealed to the
U.S. Court of Appeals for the Third Circuit. (C.A.App.
8).
On October 5, 2016, the Third Circuit reversed the
District Court’s order dismissing the case. (App. 25).
In its opinion, the court found that Schuchardt had
established “facial” standing to pursue the case. The
court remanded the case to the District Court, to

17
consider whether Schuchardt had sufficient factual
evidence to move forward with his allegations. Id.
On March 15, 2017, Respondents filed a second
motion to dismiss the complaint. (C.A.App. 11).
Schuchardt filed a response in opposition to the motion
July 10, 2017.
(C.A.App. 11-12).
Schuchardt’s
response consisted of a brief and several affidavits.
One of the affidavits was submitted by William E.
Binney, a former technical director at the National
Security Agency. (App.124).
On February 4, 2019, the District Court entered a
memorandum opinion and order dismissing the case.
(App. 19).
On February 12, 2019, Schuchardt appealed the
District Court’s order to the U.S. Court of Appeals for
the Third Circuit. (C.A.App. 13, 68).
On September 23, 2019, the Third Circuit held oral
argument in connection with the case. On March 2,
2020, the Circuit Court issued an opinion and order
affirming the District Court’s order dismissing the
case. (App. 1)

18
REASONS FOR GRANTING THE PETITION
The District Court dismissed this case for lack of
subject matter jurisdiction, pursuant to Rule 12(b)(1) of
the Federal Rules of Civil Procedure.
In doing so, the court improperly decided the case
on the merits, before the case could be litigated.
I. The District Court erred by dismissing this
case for lack of subject matter jurisdiction.
A claim may be dismissed under Rule 12(b)(1) only
if it “clearly appears to be immaterial” or is “wholly
insubstantial and frivolous.” Gould Elecs., Inc. v.
United States, 220 F.3d 169,178 (3d Cir. 2000). This is
an extremely low standard, which indicates that this
case should move forward.
Schuchardt has subject matter jurisdiction in this
case because the complaint pleads a violation of the 4th
Amendment of the Constitution. The 4th Amendment
prohibits government interference with the private
papers of the citizenry, without a warrant issued upon
a finding of probable cause. U.S. Const., 4th Amend.
Subject matter jurisdiction exists in this case
pursuant to 28 U.S.C. § 1331, which states that the
district courts of the United States “shall have original
jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.” 28
U.S.C. § 1331 (2020).
It is proper for the Court to reverse the lower courts’
decision for the reasons set forth below.

19
A. Schuchardt has adequately pled a cause of
action for violation of the 4th Amendment.
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, ‘to
state a claim to relief that is plausible on its face.”’
Wikimedia Foundation u. National Security Agency,
857 F.3d 193, 208 (4th Cir. 2017).
In Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct.
1937, 1949 (2009), this Court elaborated on this
standard:
A pleading that offers “labels and conclusions” or
“a formulaic recitation of the elements of a cause
of action will not do.” 550 U.S., at 555, 127
S. Ct. 1955, 167 L. Ed. 2d 929. Nor does a
complaint suffice if it tenders “naked
assertion^]” devoid of “further factual
enhancement.” [citations omitted].
To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted
as true, to “state a claim to relief that is
plausible on its face.” IT, at 570, 127 S. Ct. 1955,
167 L. Ed. 2d 929. A claim has facial plausibility
when the plaintiff pleads factual content that
allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged. IT, at 556, 127 S. Ct. 1955,
167 L. Ed. 2d 929.
Iqbal, 556 U.S. at 678, 129 S. Ct. at 1949 (emphasis
added).

20
The Petitioner, Elliott Schuchardt, has satisfied this
standard. Schuchardt’s complaint includes a plethora
of factual allegations concerning improper government
collection of e-mail. Specifically, Count I of the Second
Amended Complaint states as follows:
87.
Schuchardt is a consumer of various types
of electronic communication, storage, and
internet-search services. These include the email services provided by Google and Yahoo; the
internet search service provided by Google; the
cloud storage services provided by Google and
Dropbox; the e-mail and instant message
services provided by Facebook; and the cell
phone and text communication service provided
by Verizon Communications.
88.
The
Respondents are unlawfully
intercepting, accessing, monitoring and/or
storing the private communications of the
Plaintiff, made or stored through such services.
89.
This complaint will refer to the
Respondents’ above-described activities as the
“collection” of private communications.
90.
The Respondents’ collection of data
includes both the content of the Plaintiffs email, as well as the “metadata” associated with
such e-mail.
91.
For purposes of this complaint, the
content of an e-mail includes the actual text of
the e-mail and any attachments to the e-mail,
including photographs and documents.

21
92.
Since March 12, 2006, the Respondents
have been collecting both the content and the
metadata of the Plaintiffs’ private e-mail
communications sent through the Yahoo e-mail
system.
93.
Since January 14, 2009, the Respondents
have been collecting both the content and the
metadata of the Plaintiffs’ private e-mail
communications sent through the Google “gmail”
e-mail system.
94.
Since January 14, 2009, the Respondents
have been collecting the content and the
metadata of the Plaintiffs’ private internet
search history through the Google search
website.
Since June 3, 2009, the Respondents have
95.
been collecting the content of the Plaintiff s email and instant messages through Facebook.
96.
Upon information and belief, since
approximately June 2013, the Respondents have
been collecting the content and metadata of
documents stored by the Plaintiff using the
Dropbox cloud storage service.
97.
The
documents,
images
and
communications collected by the Respondents
contain information of a private and confidential
nature. Such communications include bank
account numbers; credit card numbers;
passwords for financial data; health records; and

22

trade secrets of a confidential and valuable
nature.
98.
The documents and communications
collected by the Respondents also include
communications with clients of Schuchardt’s law
firm, which are privileged and confidential
under applicable law.
99.
Upon information and belief, the
Respondents are storing such information in a
computer database, or through a government
program, which the Respondents call “Prism.”
100. Upon information and belief, the
Respondents are collecting such information in
order to “data mine” the nation’s e-mail
database.
Data mining in the process of
collecting, searching and analyzing large
amounts of data for the purpose of finding
patterns or relationships in such data.
101. The Respondents’ conduct is unlawful
under the United States Constitution, the civil
and criminal laws of the federal government,
and the civil and criminal laws of the
Commonwealth of Pennsylvania.
102. It is impossible to understate the danger
of the Respondents’ conduct. The framers of the
United States constitution were familiar with
abusive governmental conduct. They therefore
specifically stated that the United States
government would not have the power to search
and seize the private papers of United States
citizens without obtaining a warrant from a

23
neutral and detached magistrate, issued upon a
finding of probable cause.
103. Now, for the first time in history, a small
group of persons within the United States
government is attempting to seize all of the
private, electronic communications of the
American citizenry, with little or no independent
review.
104. The system set up by the Respondents where the government has possession of all
private communications and stored electronic
documents - is unstable. The system is ripe for
abuse and could lead to the destruction of the
republic.
105. According to 28 U.S.C. § 2201, this Court
has the power to adjudicate a dispute between
the Plaintiff and the Respondents involving any
issue involving federal law.
106. The Plaintiff is aggrieved by the abovedescribed conduct of the Respondents.
107. The Respondents are subject to the law
established by the United States Constitution.
108. According to the 4th Amendment of the
United States Constitution:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall
not be violated, and no warrants shall issue,
but upon probable cause, supported by oath

24
or affirmation, and particularly describing
the place to be searched, and the persons or
things to be seized.
109. The Plaintiff has an expectation of privacy
in the above-described private information and
electronic communications being collected by the
Respondents.
110. The Respondents have unlawfully
collected such information in violation of the 4th
Amendment, without obtaining a warrant and
without probable cause.
111. As of this date, the Respondents have
refused to provide any public explanation of the
legal authority that purports to authorize their
intrusion into the affairs of the Plaintiff.
112. The Plaintiff respectfully submits that
any such purported authority, when ultimately
disclosed by the Respondents, is unlawful as a
violation of the 4th Amendment of the United
States Constitution.
113. If the Respondents are purporting to act
pursuant to secret orders established by the
Foreign Intelligence Surveillance Court, the
Plaintiff respectfully submits that any such
authority is also unlawful as a violation of the
due process clause of the 14th Amendment.
(App. at 105-109).
Thus, the complaint itself pleads ample detail of
improper government collection.

25
B. The District Court erred by deciding the
merits of this case on a motion challenging
subject matter jurisdiction.
The District Court considered Respondents’ motion
to be a “factual challenge” pursuant to Rule 12(b)(1) of
the Federal Rules of Civil Procedure. In doing so, the
District Court improperly considered the merits of the
case on a preliminary motion to dismiss.
On a Rule 12(b)(1) factual challenge, the plaintiff
has the burden of proof and the burden of persuasion.
Mortensen v. First Fed. Sau. & Loan Ass’n, 549 F.2d
884, 891 (3d Cir. 1977); Gould Elecs. Inc. v. United
States, 220 F.3d 169, 176 (3d Cir. 2000). Thus “a
12(b)(1) factual challenge strips the plaintiff of the
protections and factual deference provided under
12(b)(6) review” for a typical motion to dismiss on the
merits. HartigDrug Co. Inc. v. Senju Pharm. Co. Ltd.,
836 F.3d 261, 268 (3d Cir. 2016).
For this reason, it is improper for a court to dismiss
a case pursuant to Rule 12(b)(b)(l) when the
jurisdictional facts are intertwined with the merits of
the case. As explained by the Third Circuit:
We have repeatedly cautioned against allowing
a Rule 12(b)(1) motion to dismiss for lack of
subject matter jurisdiction to be turned into ah
attack on the merits. E.g., Gould Elecs. Inc. v.
United States, 220 F.3d 169, 178 (3d Cir. 2000);
Growth Horizons, Inc. v. Delaware Cty., Pa., 983
F.2d 1277, 1280-81 (3d Cir. 1993); Kehr
Packages, Inc. v. Fidelcor, Inc., 926 F.2d 1406,
1408-09 (3d Cir. 1991).... Caution is necessary

26
because the standards governing the two rules
differ markedly, as Rule 12(b)(6) provides
greater procedural safeguards for plaintiffs than
does Rule 12(b)(1). . . . Unlike Rule 12(b)(6),
under which a defendant cannot contest the
plaintiffs factual allegations, Rule 12(b)(1)
allows a defendant to attack the allegations in
the complaint and submit contrary evidence in
its effort to show that the court lacks
jurisdiction. Mortensen, 549 F.2d at 891. Thus,
improper consideration of a merits question
under Rule 12(b)(1) significantly raises both the
factual and legal burden on the plaintiff. Given
the differences between the two rules, “[a]
plaintiff may be prejudiced if what is, in essence,
a Rule 12(b)(6) challenge to the complaint is
treated as a Rule 12(b)(1) motion.” Kehr
Packages, 926 F.2d at 1409.
Davis v. Wells Fargo, 824 F.3d 333, 348-349 (3d Cir.
2020).
According to the above case, it is improper for a
court to decide the merits of a case on a motion to
dismiss pursuant to Rule 12(b)(1), when the motion
raises the same issues as the factual challenge to
jurisdiction. Yet that is exactly what the Third Circuit
did in this case. It is therefore proper for this Court to
reverse the order of the Third Circuit.

27
C. Schuchardt presented to the lower court
ample factual evidence of improper
government collection of e-mail.
In the litigation below, Schuchardt presented ample
factual evidence in support of his allegations. Such
factual evidence consisted of an affidavit by William E.
Binney, a former technical director at the National
Security Agency.
Binney reviewed some of the
documents leaked by former government contractor
Edward Snowden. In his affidavit, Binney stated his
opinion that such documents were accurate and that
they indicated Respondents are improperly collecting
the nation’s e-mail database. (App. 124)
Schuchardt provided a wide variety of other
evidence as well. Such evidence included the following:
Date
December 2001

December 2001

Disclosure
Colleagues at NSA disclose to
William Binney that the agency
is collecting full content of
domestic e-mail, without privacy
protections.
(App. 124,
5;
C.A.App. 230).
According to U.S. Senate Staffer,
Diane Roark, the objective of the
NSA at this time was to “own the
internet” and “collect it all.”9

9 See Statement of Diane Roark, former staff member, United
States Senate, at 1 hour, 13 minutes in https://www.cspan.org/video/?450976-l/national-security-agency-september-ll2001.

28
December 2005

February 2008

May 1, 2013

June 2013

August 2013

New York Times discloses
existence of program collecting
full content of domestic e-mail,
without court supervision.10
(C.A.App. 231).
Scientist at Sandia National
Laboratory discloses to
Schuchardt that “every single email that you send goes into a
government
database.”
(Schuchardt testimony).
Former FBI Special Agent, Tim
Clemente, states on CNN that
“all digital communications are
captured,” and can be reviewed
retroactively.11
Former
CIA systems
administrator, Edward Snowden,
claims ability to access a
database containing the full
content of United States
domestic e-mail. (C.A.App. 14347).
Ladar Levison complains that
Defendants want the access
codes for all e-mail within his
encrypted e-mail service,
Lavabit. (C.A.App. 130).

10 James Risen and Eric Lichtblau, “Bush Lets U.S. Spy on Callers
Without Courts,” N.Y. Times, Dec. 16, 2005, at Al.
11 See “Erin Burnett - Outfront,” CNN, May 13, 2013, at
https://www .youtube. com/watch?v=£FnCeOgThlY.

29
June 2014
July 2017

Schuchardt commences this
lawsuit.
William Binney confirms that
the government is continuing to
collect full content of U.S.
domestic e-mail. (C.A.App. 23132). His conclusion is based on a
review of the Snowden
documents, as well as his
consulting for foreign
governments. (C.A.App. 240, at

1168).
As explained above, Schuchardt has significant
evidence that Respondents are engaging in bulk
collection of United States domestic e-mail.
Schuchardt’s evidence is documented in the affidavits
filed in this case. (App. 119, 124).
II. It is proper for the Court to grant a writ of
certiorari in this case.
There are numerous reasons why the Court should
grant a writ of certiorari in this case.
First, the executive branch is interfering with the
investigatory function of this Court, and illegally
probing into the private communications of American
citizens.
Second, the executive branch is abusing the power
that it has obtained by assembling a database of the
nation’s private communications.

30
Third, the lower courts have indicated that it is
proper for the courts to exercise jurisdiction in
collection cases.
Finally, the executive branch’s own investigatory
body — the Privacy and Civil Liberties Oversight
Board - has expressed concerns about the scope andbreadth of the government’s growing database.
Each of these arguments is discussed in greater
detail below.
A. The executive branch is infringing on the
investigatory function of this Court.
In 1803, in Marbury v. Madison, 5 U.S. 137 (1803),
this Court stated that it has the power to issue orders
binding upon the executive branch of the United
States.
Since that time, the Court has jealously guarded the
power of the federal courts, vis-a-vis the executive
branch. See, e.g., Youngstown Sheet & Tube Co. u.
Sawyer, 103 F. Supp. 569 (D.D.C. 1952) (president does
not have the power to seize nation’s steel mills under
his alleged power as commander in chief of the armed
forces); United States u. Nixon, 418 U.S. 683 (1974)
(president does not have the power to determine the
scope of a subpoena issued by a federal court); see also
Boumediene v. Bush, 553 U.S. 723, 742, 128 S. Ct.
2229, 2246 (2008) (“The Framers’ inherent distrust of
governmental power was the driving force behind the
constitutional plan that allocated powers among three
independent branches.”).

31
In this case, the executive branch is attempting to
usurp the Court’s investigatory function. This function
was assigned to the federal courts by Article III of the
U.S. Constitution. Specifically, that section provides as
follows:
The judicial Power of the United States, shall be
vested in one supreme Court, and in such
inferior Courts as the Congress may from time
to time ordain and establish.
U.S. Const., Art. Ill, Sect. 1.
By unilaterally seizing the nation’s e-mail and
searching it without a court order, the Respondents
have rendered moot the need for this Court to review
and issue subpoenas.
The judicial power of the United States cannot be
shared with other branches of the federal government.
In 1974, this Court addressed this issue in United
States v.- Nixon, 418 U.S. 683, 704-705, 94 S. Ct. 3090,
3106, 41 L. Ed. 2d 1039, 1062 (1974).
In that case, the U.S. District Court for the District
of Columbia issued a subpoena to President Nixon,
directing him to produce audio recordings of
conversations that occurred in the Oval Office. Nixon
moved to quash the subpoena, arguing that production
would have violated “executive privilege.” The District
Court denied Nixon’s motion, finding that the federal
courts - and not the President - are the final arbiter of
the law. United States v. Mitchell, 377 F. Supp. 1326
(D.D.C. 1974) (Sirica, J).

32
On appeal, this Court unanimously affirmed Judge
Sirica. The Court explained its reasoning as follows:
Our system of government “requires that federal
courts on occasion interpret the Constitution in
a manner at variance with the construction
given the document by another branch.”

The “judicial Power of the United States” ... can
no more be shared with the Executive Branch
than the Chief Executive, for example, can share
with the Judiciary the veto power. ... Any other
conclusion would be contrary to the basic
concept of separation of powers and the checks
and balances that flow from the scheme of a
tripartite government. The Federalist, No. 47, p.
313 (S. Mittell ed. 1938). We therefore reaffirm
that it is the province and duty of this Court “to
say what the law is” with respect to the claim of
privilege presented in this case. Marbury v.
Madison, supra, at 177.
Nixon, 418 U.S. at 704-705, 94 S. Ct. at 3106 (1974).
The seizure of online documents in this case is far
more pernicious than the facts of the Nixon case. In
Nixon, the executive branch was wiretapping the
political opposition. In this case, the executive branch
is essentially wiretapping the entire nation, including
the Court itself. (C.A.App. 86).
For the foregoing reasons, the executive branch is
attempting to seize the Court’s power. The Plaintiff
respectfully submits that the Court enforce its powers,

33
while it has the ability to do so. Clinton v. City of New
York, 524 U.S. 417, 450, 118 S. Ct. 2091 (1998)
(Kennedy, J., concurring) (“Liberty is always at stake
when one or more of the branches seek to transgress
the separation of powers”).
B. Respondents’ conduct is an impermissible
“general warrant.”
In their pleadings filed with the FISC, Respondents
have repeatedly emphasized their “internal controls” in
accessing and searching the collected data.
However, these internal controls are not adequate,
and will never work. The temptation to search the
government’s massive and growing database of private
communications will inevitably lead to abuses of
Respondents’ unstable system. Political leaders will
search the database for information about their
opponents. NSA staffers will access the records of
major law firms and investment banks for inside
information concerning investments. Spurned lovers
will use the database to cyber stalk the objects of their
affection. The trade secrets of the Fortune 500 are at
risk. The possibilities are limitless.
The key to the kingdom must be held by a third
party, namely the courts. It should not be necessary to
reinvent the wheel on this issue. History tells us the
foreseeable result.
The United States constitution grew out of the
governmental abuses common during the period from
1761 to 1791. This time period was characterized by
aggressive search and seizure practices that were the
result of the “general warrant.” A general warrant:

34
empowered a person “to search in all places,
where books were printing, in order to see if the
printer had a license; and if upon such search he
found any books which he suspected to be
libelous against the church or state, he was to
seize them, and carry them before the proper
magistrate.”
[citation omitted]. Thus the
general warrant became a powerful instrument
in proceedings for seditious libel against printers
and authors.
Warden, Maryland Penitentiary v. Hayden, 387 U.S.
294, 313-314, 87 S. Ct. 1642, 1653-1654, 18 L. Ed. 2d
782, 796 (1967). A general warrant was, therefore,
very similar to the power that the executive
branch is attempting to seize from the Court in
this case.
In 1787, our present Constitution was drafted
without a Bill of Rights. The absence of a Bill of Rights
became a significant source of concern during the
ratification process. There was much talk about
general warrants, and the nation’s fear of them. Id.
Patrick Henry spoke out concerning the dangers of the
situation, using words that are, ironically, still relevant
today:
The officers of Congress may come upon you
now, fortified with all the terrors of paramount
federal authority. . . . They may, unless the
general government is restrained by a bill of
rights, or some similar restriction, go into your
cellars and rooms, and search, ransack, and
measure, every thing you eat, drink, and wear.

35
They ought to be restrained within proper
bounds.
Warden, Maryland Penitentiary, 387 U.S. at 316, 87
S. Ct. at 1655 (citing 3 Elliot’s Debates 448-49).
During the ratification process, several states
requested that the new Constitution be amended to
provide protection against unjustified searches and
seizures. In response, the first Congress proposed the
Fourth Amendment, which became part of the
Constitution in 1791.
The above history of the Fourth Amendment is
important and relevant today. The dangers posed by
Respondents’ conduct are real. This is why some of the
smartest people in the United States government including William Binney - have risked their liberty to
bring this matter to the attention of this Court. This is
why there was such an uproar when the Snowden’s
disclosures became known in June 2013.
If the executive branch can seize all electronic
communications without oversight, the power will be
abused. As explained below, this is exactly what has
occurred.
C. The Respondents’ system provides no
effective protection for the information of
U.S. citizens.
There are several problems with the existing
system.
First, as noted by Edward Snowden, the existing
system makes possible a warrantless search of private

36
documents of United States citizens. There is no
credible mechanism that requires third party disinterested approval — before a search occurs. This
has led to improper searches by governmental analysts
of the e-mail of various love interests. (C.A.App. 236,
K 48, 52). During the 2016 federal election, there were
also allegations that President Obama’s National
Security Adviser, Susan Rice, improperly conducted
searches of President Trump’s campaign. (C.A.App.
236, 49).
The existing system is monitored by persons in the
executive branch - i.e. other intelligence-community
staffers who are generally friends with the people
conducting the searches. As a result, there is both a
moral hazard that improper searches will occur, and
the violations will not be reported.
Second, the existing system can be “gamed” by
persons at the top of the pyramid. As noted above,
there is theoretically a record of every single query
made into Respondents’ systems — designed as IC
Reach and xKeyScore. However, it is possible for
persons at the top of the system to delete the records of
certain searches. This enables a higher level of
misconduct, such as searches of pending Wall Street
transactions, to enable insider trading, or as we found
during the last election, inquiries in the opposing
parties’ political campaigns. (C.A.App. 237, U 51).

37
D. Four federal circuit courts have held that
plaintiffs have standing in collection cases,
such as this case.
First, at least four federal circuit courts have held
that plaintiffs have standing in collection cases, such as
this. Each of these cases is discussed below.
1) Ninth Circuit.
In Jewel v: NSA, 673 F.3d 902 (9th Cir. 2011), a
group of citizens sued the NSA, objecting to the
agency’s collection of e-mail through a communication
facility in the San Francisco area.
The District Court in Jewel initially found that the
plaintiffs did not have standing. However, on appeal,
the Ninth Circuit found that the plaintiffs had
standing to challenge the government’s collection of email. In reaching this conclusion, the court rejected the
government’s contention that there is heightened
standing requirement in national security cases:
Article III imposes no heightened standing
requirement for the often difficult cases that
involve constitutional claims against the
executive involving surveillance. See Amnesty
Int’l, 638 F.3d at 149 (“We do not see any reason
why the law of standing should be stricter or
different in the surveillance context.”).
Jewel, 673 F.3d at 913.
2) Second Circuit.
In 2014, the U.S. Court of Appeals for the Second
Circuit reached a similar conclusion in ACLU v.

38
Clapper, 785 F.3d 787, *801; 2015 U.S. C.AApp.
LEXIS 7531, **27 (2d Cir. 2014).
In that case, the American Civil Liberties Union
filed suit to enjoin the government’s collection of
telephone metadata. The trial court, sitting in the
Southern District of New York, found that the ACLU
had standing to challenge the government’s collection
activities. ACLU v. Clapper, 959 F. Supp. 2d 724, 738
(S.D.N.Y. 2013).
On appeal, the U.S. Court of Appeals for the Second
Circuit affirmed, and found that the ACLU had
standing to challenge the government’s collection of
metadata. The Court explained its reasoning as
follows:
Appellants in this case have . . . established
standing to sue, as the district court correctly
held. Appellants here need not speculate that
the government has collected, may in the future
collect, their call records. ... It is not disputed
that the government collected telephone
metadata associated with the appellants’
telephone calls. The Fourth Amendment protects
against unreasonable searches and seizures.
Appellants contend that the collection of their
metadata exceeds the scope of what is
authorized by § 215 and constitutes a Fourth
Amendment search. . . . Whether or not such
claims prevail on the merits, appellants surely
have standing to allege injury from the
collection, and maintenance in a government
database, of records relating to them.

39
ACLU v. Clapper, 785 F.3d 787, *801 (2d Cir. 2014)
(emphasis added).
3) Fourth Circuit.
In 2017, the U.S. Court of Appeals for the Fourth
Circuit held that the Wikimedia Foundation had
standing to sue the National Security Agency, in a case
alleging bulk collection of e-mail and text messages.
Wikimedia Foundation v. National Security Agency,
857 F.3d 193 (4th Cir. 2017). The Fourth Circuit
summarized its conclusion as follows:
[Wikimedia’s] allegations are sufficient to make
plausible the conclusion that the NSA is
intercepting, copying, and reviewing at least
some of Wikimedia’s communications. To put it
simply, Wikimedia has plausibly alleged that...
the NSA seizes all of the communications along
at least one of those roads. Thus, at least at this
stage of the litigation, Wikimedia has standing
to sue for a violation of the Fourth Amendment.
Id: at 211. In a dissent, Justice Davis indicated that he
would have granted standing to all of the Plaintiffs in
the case, and not just to Wikimedia. Id. at 217.

40
4) D.C. Circuit.
Finally, in 2013, the U.S. Court of Appeals for the
District of Columbia found that a plaintiff had standing
in another case, identical to this case. In Klayman v.
Obama, 957 F. Supp. 2d 1, 27 (D.D.C. 2013), several
private citizens sued the federal government, seeking
an injunction on the government’s collection of
telephone metadata. The District Court Judge, the
Honorable Richard Leon, found that the plaintiffs had
standing:
Put simply, the Government wants it both ways.
Virtually all of the Government’s briefs and
arguments to this Court explain how the
Government has acted in good faith to create a
comprehensive metadata database that serves
as a potentially valuable tool in combating
terrorism — in which case, the NSA must have
collected metadata from Verizon Wireless, the
single largest wireless carrier in the United
States, as well as AT&T and Sprint, the second
and third-largest carriers.
Klayman, 957 F. Supp. 2d at 27, 2013 U.S. Dist. LEXIS
176925, at 67-68. Judge Leon therefore rejected the
government’s reasoning, and found that the plaintiffs
had standing.
On appeal, a plurality of justices on the D.C. Circuit
agreed that the plaintiffs had standing, at least for
purposes of limited discovery to determine whether the
plaintiffs’ records were being collected by the
government. Obama v. Klayman, 800 F.3d 559 (D.C.
Cir. 2015) (“On remand it is for the district court to

41
determine whether limited discovery to explore
jurisdictional facts is appropriate.”).
The federal circuit courts are therefore attuned to
the dangers posed by Respondents’ conduct, and are
engaged on these issues. It is therefore proper for the
Court to grant a writ of certiorari in this case, and
review the Respondents’ activities.
E. The Privacy and Civil Liberties Board did
not ratify Respondents’ collection
activities.
In its opinion, the Third Circuit argued that
Respondents’ collection activity had already been
reviewed and vetted by the Privacy and Civil Liberties
Oversight Board (the “PCL Board”).
It is proper for the Court to reject this conclusion.
During 2013 and 2014, the PCL Board interviewed
a number of people, in connection with the subjects
described herein. These included Schuchardt’s expert
witness, William Binney.
On July 2, 2014, the PCL Board issued a report
concerning the scope and legality of Respondents’ bulk
collection of e-mail.
In that report, the Board expressed significant
concern about the scope of Respondents’ collection
activities.
First, the Board admitted that it did not have
accurate information concerning the scope of
Respondents’ bulk collection. Specifically, the Board
stated as follows:

42
The government is presently unable to assess the
scope of the incidental collection of U.S. person
information under the program. For this reason,
the Board recommends several measures that
together may provide insight about the extent to
which communications involving U.S. persons or
people located in the United States are being
acquired and utilized.
Report of the Privacy & Civil Liberties Board, at 10
(2014) (emphasis added). In other words, Respondents
refused to admit - even to its own board of inquiry how much e-mail it was collecting under the program.
Second, the Board did not find Respondents’
activities to be constitutional. Specifically, the Board
stated as follows:
The Board has found that certain aspects
of the program’s implementation raise
privacy concerns. These include the scope
of the incidental collection of U.S. persons’
communications and the use of queries to
search the information collected under the
program for the communications of specific U.S.
persons. The Board offers a series of policy
recommendations to strengthen privacy
safeguards and to address these concerns.
PCL Board Report, at 2 (emphasis added).
In light of these conclusions, it is proper for the
Court to grant a writ of certiorari in this case, to review
Respondent’s collection activities.

43
CONCLUSION
This case poses a question of vital importance to
every single American.
For the first time in human history, a small group
of persons within the executive branch of the federal
government has the power to read the private
electronic communications of every person in our
society. This is being done by means of a database of
collected e-mail communications.
It is time to move this database back to where it
belongs - the internet service providers. This will
ensure that access to the database is limited to persons
who have obtained a warrant, as required by the 4th
Amendment of the United States Constitution.
This can be done safely, and for the protection of all
concerned. The documents in the database would still
exist and would remain available for review by the
appropriate authorities. The database could still be
searched and accessed real time - but only upon a
finding of probable cause made by a court. This will
ensure that the system will not be abused.
Seventy-five years ago, Justice Felix Frankfurter of
this Court warned the American people of the
importance of enforcing the 4th Amendment. He said:
This Court has thus far jealously enforced the
principle of a free society secured by the
prohibition of unreasonable searches and
seizures. ... It is not only under Nazi rule that
police excesses are inimical to freedom. It is easy
to make light of insistence on scrupulous regard

44
for the safeguards of civil liberties when invoked
on behalf of the unworthy. It is too easy. History
bears testimony that by such disregard are the
rights of liberty extinguished, heedlessly at first,
then stealthily, and brazenly in the end.
Davis v. United States, 328 U.S. 582, 597, 66 S. Ct.
1256, 1263, 90 L. Ed. 1453, 1462 (1946) (emphasis
added).
Let us heed his words, while there is still time to do
so.

WHEREFORE, for the reasons set forth above, the
Petitioner, Elliott J. Schuchardt, respectfully requests
that this Honorable Court enter an order granting a
writ of certiorari in this case.
Respectfully submitted,
Elliott J. Schuchardt
SCHUCHARDT LAW FIRM
6223 Highland Place Way
Suite 201
Knoxville, TN 37919
(865) 304-4374
e lliottO 16@ gm ail. com
Appearing Pro Se

